Region 5's Billing and Collection of Accounts
Receivable
                                            #7100139


Inspector General Division Conducting the Audit:
Northern Audit Division
Chicago, Illinois

Program Office Involved:
Resource and Management Division
Office of Regional Counsel
Office of Superfund



                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY

CHAPTERS

      INTRODUCTION

           Purpose
           Background
           Scope and Methodology
           Prior Audit Coverage
      SUPERFUND OVERSIGHT COSTS WERE NOT TIMELY COLLECTED

             Oversight Receivables Were Not Timely Recorded or Billed
             Follow-up on Unpaid Receivables Was Not Effective
             CTS Will Facilitate the Billing and Collection Process
             Conclusion
             Recommendations and Agency Actions
             OIG Evaluation

      REGION 5 DID NOT BILL SUPERFUND ACCOUNTS RECEIVABLE ON A CUMULATIVE
      BASIS
            Region 5's Current Practice Does Not Include Cumulative Billings
            CTS Has the Capability of Generating Cumulative Billings
            Conclusion
            Recommendations and Agency Actions
            OIG Evaluation
      PAYMENTS WERE OBTAINED FOR UNRECORDED RECEIVABLES
            Accounts Receivable Are Not Recorded Timely
            Conclusion
            Recommendations and Agency Actions
            OIG Evaluation

EXHIBIT

      Number of RCO Requests for Unrecorded Receivable Documentation

APPENDICES

  •   REGION 5's RESPONSE TO DRAFT REPORT
  •   ABBREVIATIONS
  •   DISTRIBUTION
